                                     SOCIAL SECURITY

MEMORANDUM

Date:   August 11, 2011                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Work Incentive Planning and Assistance Project (A-03-10-11054)



        The attached final report presents the results of our audit. Our objectives were to
        determine whether the Social Security Administration had appropriate oversight and
        monitoring controls for the Work Incentive Planning and Assistance (WIPA) Project. In
        addition, we determined whether (1) expenditures for WIPA were allowable, supported,
        and in accordance with the grant’s terms and (2) grantees accomplished the grant
        objectives.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.
        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    WORK INCENTIVE PLANNING AND
        ASSISTANCE PROJECT


     August 2011   A-03-10-11054




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                          Executive Summary
OBJECTIVE
The objectives of our review were to determine whether the Social Security
Administration (SSA) had appropriate oversight and monitoring controls for the Work
Incentive Planning and Assistance (WIPA) Project. In addition, we determined whether
(1) expenditures for WIPA were allowable, supported, and in accordance with the
grant’s terms and (2) grantees accomplished the grant objectives.

BACKGROUND
The Ticket to Work and Work Incentives Improvement Act of 1999 1 requires that SSA
award cooperative agreements (or grants) to community-based organizations called
WIPA organizations, formerly named Benefits Planning, Assistance and Outreach. 2
The grantees are required to disseminate accurate information to Social Security
beneficiaries and recipients 3 with disabilities (including transition-to-work aged youth)
about work incentives programs and issues related to such programs to assist them in
their employment efforts. The ultimate goal is to assist disabled Social Security
beneficiaries to succeed in their return to work efforts.

From 2006 through 2010, SSA awarded approximately $93 million in grant funds to
103 WIPA grantees 4 across the United States and its territories, Puerto Rico and the
U.S. Virgin Islands. The grant awards ranged from about $396,000 to $1.4 million over
the 5-year period.

RESULTS OF REVIEW
While SSA awarded approximately $93 million to 103 grantees to provide work
incentives planning and assistance to Disability Insurance and/or Supplemental Security
Income beneficiaries, we found the Agency was unable to determine how many
beneficiaries had received WIPA services since WIPA’s inception in 2006. This
occurred because beneficiary data collected and reported by the grantees was
inconsistent, which caused the data to be unreliable for the period October 2006
through September 2008. SSA recognized the problem and implemented the Efforts to
Outcome (ETO) system. ETO is a centralized database grantees used to track and
1
    Pub. L. No. 106-170, § 101,113 Stat. 1860, 1863 (1999).
2
    Id.at § 121, 113 Stat 1887.
3
    We refer to both DI beneficiaries and SSI recipients as beneficiaries in this report.
4
  In total, SSA awarded funds to 108 grantees from 2006 through 2010. However, four grantees were
replaced, and one grantee was terminated because the grantee was not able to meet the matching fund
requirement.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                   i
monitor beneficiary information. While ETO showed 12,574 beneficiaries were enrolled
in WIPA services during the 6-month period beginning in October 2009, we verified that
11,890 (95 percent) were eligible to receive WIPA services as they were receiving
Social Security benefits. For the remaining 684 (5 percent) individuals, we found
507 were missing Social Security numbers (SSN), 128 had invalid SSNs, 38 were
not receiving Social Security benefits, and 11 died before the WIPA enrollment date.

SSA had not established performance goals or specific targets to define the level of
performance to be achieved by WIPA grantees. The lack of clearly defined
performance goals contributed to the significant variation in the cost to enroll
beneficiaries in WIPA services. The cost per enrollee ranged from $138 to
$5,230 among the 103 grantees. 5 The average cost per enrollee was $587 while the
median was $686 per enrollee. Without clear expectations of what grantees are to
accomplish, it is difficult for SSA to adequately measure grantees’ performance, or the
success of WIPA.

Finally, although SSA provided a degree of oversight and monitoring of WIPA grantees,
improvements were still needed because SSA did not conduct suitability determinations
for 56 grant employees 6 as required by the grant award. 7 Initially, the Agency
determined that suitability determinations were not required for some of these
employees because the employees were in positions that did not appear to require
access to personal identifiable information (PII). However, we found that at least nine of
the grant employees were granted access to SSA’s ETO system, which contains
beneficiaries’ PII, such as benefit and earnings information. In addition, two grantees
could not demonstrate that they provided about $41,000 in matching funds or in-kind
services, and three grantees failed to submit a re-budgeting request to SSA after their
Federal share portion of grant funds exceeded the threshold by about $112,000 during
2 grant years.

CONCLUSION AND RECOMMENDATIONS

From 2006 through 2010, SSA awarded about $93 million in grant funds to
103 grantees to provide work incentives planning and assistance to Disability Insurance
and/or Supplemental Security Income beneficiaries. However, the Agency was still
unable to show employment outcomes for beneficiaries receiving WIPA services
because of the challenges with the quality and accuracy of the beneficiary data
collected and reported by WIPA grantees. In addition, SSA did not clearly outline

5
  In addition to the lack of clearly defined performance goals, the disparity in the level of performance
among the 103 grantees can be attributed to other factors, such as staffing level of grantees, location of
the grantee in comparison to the population served, and leveraging of non-SSA funding by grantees. We
obtained the costs per enrollee were from SSA’s WIPA Average Cost per Enrollment report, as of
February 2011 revised.
6
 After we notified the SSA about the 56 grant employees that did not receive the required suitability
determinations, the Agency initiated and completed suitability determinations for 8 grant employees.
7
    SSA conducted suitability determinations for about 900 WIPA grant employees.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                          ii
specific performance measurements that defined the level of performance the WIPA
grantees were to achieve. Furthermore, we found that SSA was providing a degree of
oversight and monitoring of WIPA grantees to ensure grantees complied with
administrative, financial, and program policy and procedures. However, we believe the
Agency still needs to make improvements related to suitability determinations, matching
funds, and budget revisions.

Accordingly, we recommend SSA:

•   Conduct periodic validity and integrity checks on the ETO data to ensure the data
    are reliable by verifying beneficiary names, SSNs, and benefit status. Based on the
    results of the validity and integrity checks, follow up with grantees who continue to
    enter inaccurate and incomplete information into the ETO system.

•   Establish performance goals for WIPA that define the level of performance WIPA
    grantees are to achieve, ensuring the performance goals are quantifiable and
    measurable.

•   Establish procedures to ensure all grantee employees receive a suitability
    determination before working on the WIPA grant.

•   Require the two grantees provide adequate support for the matching share or take
    appropriate steps to recover the $40,985 in grant funds.

•   Send reminders to WIPA grantees about the importance of submitting revised
    budgets to SSA when the Federal share portion of funds exceed the $5,000
    threshold either within or between expense categories.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix F.




Work Incentive Planning and Assistance Project (A-03-10-11054)                         iii
                                                                           Table of Contents
                                                                                                                       Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 6

Monitoring and Tracking Work Incentive Planning and Assistance
Enrollees ................................................................................................................. 7

•    Use of the Efforts to Outcomes System ............................................................. 7

•    Reliability of the Efforts to Outcomes Data After October 2009 ......................... 9

Performance Measures for Work Incentive Planning and Assistance ................... 11

Oversight and Monitoring of Work Incentive Planning and Assistance
Grants ................................................................................................................... 12

•    Suitability Determination for Grant Employees ................................................ 13

•    Matching Funds Requirement .......................................................................... 13

•    Budget Revisions ............................................................................................. 14

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 15

APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Work Incentive Planning and Assistance Projects Grantee
             Terms and Conditions
APPENDIX D – Summary of Sampled Grantees
APPENDIX E – Example of Intake for Work Incentive Planning and
             Assistance Grantee
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                                                                Introduction
OBJECTIVE
The objectives of our review were to determine whether the Social Security
Administration (SSA) had appropriate oversight and monitoring controls for the Work
Incentive Planning and Assistance (WIPA) Project. In addition, we determined whether
(1) expenditures for WIPA were allowable, supported, and in accordance with the
grant’s terms and (2) grantees accomplished the grant objectives.

BACKGROUND
The Ticket to Work and Work Incentives Improvement Act of 1999 1 requires that SSA
award cooperative agreements (or grants) to community-based organizations called
WIPA organizations, formerly named Benefits Planning, Assistance and Outreach
(BPAO). 2 The grantees are required to disseminate accurate information to
beneficiaries and recipients with disabilities 3 (including transition-to-work aged youth)
about work incentives programs and issues related to those programs to assist them in
their employment efforts. It is expected that this information will enable beneficiaries
with disabilities to make informed choices about working, decide whether or when to
assign their Ticket to Work, 4 and understand how work incentives can facilitate their
transition into the workforce. The ultimate goal is to assist Social Security beneficiaries
with disabilities to succeed in their return to work efforts.

From 2006 through 2010, SSA awarded approximately $93 million in grant funds to
103 WIPA grantees 5 across the United States and its territories, Puerto Rico and
U.S. Virgin Islands. The grant awards ranged from about $396,000 to $1.4 million over
the 5-year period (see Table 1). Annually, the grantees received approximately
$100,000 to $300,000 in funding.



1
    Pub. L. No. 106-170, § 101, 113 Stat. 1860, 1863 (1999).
2
    Id.at § 121, 113 Stat. 1887.
3
    We refer to both DI beneficiaries and SSI recipients as beneficiaries in this report.
4
  Under the Ticket to Work Program, SSA issues tickets to eligible beneficiaries who, in turn, may choose
to assign those tickets to an Employment Network of their choice to obtain employment services,
vocational rehabilitation services, or other support services necessary to achieve a vocational (work)
goal. The Employment Network, if it accepts the ticket, will coordinate and provide appropriate services
to help the beneficiary find and maintain employment. Supra note 1 at § 101, 113 Stat. 1863.
5
  In total, SSA awarded funds to 108 grantees from 2006 through 2010. However, four grantees were
replaced, and one grantee was terminated because the grantee was not able to meet the matching fund
requirement


Work Incentive Planning and Assistance Project (A-03-10-11054)                                        1
                     Table 1 — Grant Award Funds for 2006 Through 2010
                        Award                         Number of                Total Award
                       Amount                         Grantees                   Amount
                  $396,208 - $499,999                    23                    $10,663,878
                  $500,000 - $999,999                      38                  $27,416,682
                $1,000,000 - $1,447,469                    42                  $54,820,684
                           Total                          103                  $92,901,244

As part of the grant award, each grantee was required to establish counselors, called
Community Work Incentives Coordinators (CWIC) who were to: 6

•     provide work incentives planning and assistance to Disability Insurance (DI) and/or
      Supplemental Security Income (SSI) beneficiaries;
•     conduct outreach efforts to beneficiaries and their families who are potentially
      eligible to participate in Federal or State employment support programs; and
•     work with Federal, State, private agencies, and nonprofit organizations that serve
      beneficiaries with disabilities.

WIPA grantees divide the services they provide into two types: (1) information and
referral services and (2) WIPA services. The information and referral services include
answering general questions about benefits or work support during one or two
meetings. SSA requires that WIPA grantees devote about 20 percent of their resources
to information and referral services and outreach activities. WIPA services involve a
more intensive intake process and gathering information about the beneficiary and the
benefits he/she receives. Under WIPA services, CWICs take a baseline assessment of
the beneficiary and collect the beneficiary’s goal, employment status, education level,
and benefit information. SSA requires that WIPA grantees devote 80 percent of their
resources to WIPA services. 7

Evaluation of WIPA

SSA contracted with a research firm to conduct three evaluations of the WIPA projects.
Two of the three reports have been issued. The first report, Process Evaluation of the
Work Incentives Planning and Assistance Program, issued in February 2009, 8 focused
on three objectives. First, the evaluation captured stakeholder experiences with the
program during start-up. Second, it identified early opportunities to implement program


6
    See Appendix C for listing of the terms and conditions of the WIPA grant award.
7
    See Appendix E for example of the data collected for WIPA beneficiaries.
8
 Mathematica Policy Research, Inc., Process Evaluation of the Work Incentives Planning and Assistance
Program, dated February 2009.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                    2
improvements. Third, it addressed future program data collection, evaluations, and
outcomes analyses, ensuring such activities would be based on an accurate
understanding of program operations.

Overall, the report showed that the WIPA program had been rolled out essentially as
intended and appeared to be operating smoothly. In addition, SSA was still developing
certain aspects of WIPA, such as the data system to track overall activity and
performance, and the case quality-monitoring tools and processes. Lastly, the report
noted that the WIPA program goals and budget were misaligned. There was tension
between the desire to provide intensive long-term support aimed at encouraging
beneficiaries to increase their earnings and the available staffing and budget levels of
the WIPA projects.

The second report, Evaluation of the WIPA Program: Beneficiaries Served, Services
Provided and Program Cost, issued in September 2010, presented findings on the
activities of the 103 grantees. 9 The report provided a national profile of beneficiaries
served by WIPA projects and documented characteristics of beneficiaries who use
WIPA services. It also documented the work incentives, benefits, and services that
CWICs discussed with, or suggested to, beneficiaries and assessed the extent to which
beneficiaries who enrolled in WIPA services had sustained contact with WIPA projects.
Finally, the report related output measures, such as the number of beneficiaries enrolled
in WIPA to the amount of funding each WIPA project receives, to determine its relative
performance. Some of the key findings included the following:

•   Variation in the completeness of data collected about WIPA enrollees makes it
    difficult to determine whether beneficiary characteristics and program activities at the
    national level represent all beneficiaries served by the WIPA program. While many
    WIPA projects worked diligently to ensure high quality, complete data entry in WIPA
    Efforts to Outcomes (ETO), overall, data collection efforts were not complete. About
    10 percent of WIPA enrollees did not have a WIPA baseline assessment, meaning
    they were lacking all information about their status and service needs after being
    determined to need WIPA services.

•   WIPA projects vary in service costs per beneficiary, with outliers contributing to the
    observed range. Whether measured in terms of client enrollments or the specific
    activities undertaken by WIPA staff, output varied substantially across the 103 WIPA
    grantees, even after taking into account variation in both SSA and non-SSA funding
    and input costs. Adjusting for funding levels and input costs, direct service
    per WIPA enrollee costs varied from $49 to $3,099.

•   It was still too early to observe employment outcomes after beneficiaries received
    WIPA services, and program design did not allow for the estimation of program
    impacts.

9
 Mathematica Policy Research, Inc., Final Report, Evaluation of the Work Incentives Planning and
Assistance (WIPA) Program: Beneficiaries Served, Services Provided and Program Costs, dated
September 16, 2010.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                     3
The third WIPA evaluation report, scheduled for completion in 2011, will examine the
outcomes of beneficiaries who were enrolled and received WIPA services from
October 1, 2009 through March 31, 2010.

Grant Process

SSA’s Office of Acquisition and Grants (OAG) oversees the grant award process. OAG
processes grant applications and monitors them once they are awarded. OAG’s
monitoring duties include reviewing quarterly progress reports, reviewing annual
Financial Status Reports (FSR), 10 making determinations on re-budgeting grant funds,
reviewing requests for carryover funds, conducting necessary site visits, ensuring all
grant employees obtain a suitability clearance, 11 and closing out the grant at the end of
an award period. 12

Once a grant is awarded, OAG requests that SSA’s Office of Finance allocate funds to
an account for fund activities. The Office of Finance sets up an account in which all
grant funds for a grantee are allocated by fiscal year (FY). When the Office of Finance
processes monthly reimbursement requests from the grantees and makes payments, a
grantee can choose to either receive advanced payments or request reimbursements.

SSA’s Office of Employment Support Programs (OESP) is responsible for the design,
implementation, and monitoring of the WIPA Project. OESP’s monitoring duties include
reviewing quarterly progress reports, conducting necessary site visits, addressing
program issues and concerns, ensuring that all CWICs complete SSA-sponsored
training, 13 and ensuring grantee acceptance and compliance with the grant’s terms and
conditions. In addition, the Office of Program Development and Research is
responsible for conducting analyses on the WIPA Project.




10
  Federal agencies use the FSR (Form–269A) to monitor the financial progress of grants and show the
status of funds.
11
   As required by the grant award, SSA requires that all employees working on federally funded WIPA
grants undergo a suitability determination clearance. The process includes background checks and
fingerprinting for all staff assigned to the grant. See Appendix C for terms and conditions of the grant
award.
12
     SSA Grant Administration Manual, Section 4-05-00, August 22, 2007.
13
  In 2007, SSA partnered with the National Training Center (NTC) at Virginia Commonwealth University
and implemented a comprehensive program of training and technical assistance for CWICs. The NTC
provides the foundation of all CWIC training and certification activities, and all CWICs must be certified to
provide WIPA services to Social Security beneficiaries.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                             4
METHODOLOGY
To perform our analysis, we reviewed relevant Federal guidance 14 on grant
management, SSA policies, and grant awards for the 103 grantees. Furthermore, we
reviewed beneficiary information included in the ETO system for the period
October 2009 through December 2010. We conducted a detailed review of
12 (11 percent) of the 103 grantees who received approximately $13 million in grant
awards. 15 We selected the 12 grantees based on the grant award amount and the
location of the grantees. We sampled their transactions, payroll, indirect costs, and
matching costs incurred from 2006 through 2009 to determine whether (1) grantees’
expenditures were allowed, supported, and in accordance with the terms of the grant
award and (2) grantees accomplished the grant objectives. See Appendix B for details
on our scope and methodology. 16




14
  Office of Management and Budget Circulars A-21, Cost Principles for Educational Institutions, and
A-133, Audits of States, Local Governments, and Non-Profit Organizations.
15
     See Appendix D for details about the 12 sampled grantees.
16
  The results for 12 grantees may not be representative of the total grant population because the
grantees were judgmentally selected for review.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                        5
                                                            Results of Review
While SSA awarded approximately $93 million to 103 grantees to provide work
incentives planning and assistance to DI and/or SSI beneficiaries, we found the Agency
was unable to determine how many beneficiaries had received WIPA services since
WIPA’s inception in 2006. This occurred because, initially, SSA allowed WIPA grantees
to use their own data collection systems to track and monitor beneficiaries’ information.
The beneficiary data grantees collected and reported were inconsistent, which caused
the data to be unreliable for the period October 2006 through September 2008. SSA
recognized the problem and implemented the ETO, a centralized database used by
grantees to track and monitor beneficiary information. However, the contractor
determined the beneficiary information entered into ETO before October 2009 was
unreliable because of issues with data quality, accuracy, and completeness.

Additionally, we found that while the ETO system showed 12,574 beneficiaries enrolled
in WIPA services from October 2009 through March 2010, we verified that only
11,890 (95 percent) beneficiaries were eligible to receive WIPA services. For the
remaining 684 individuals (5 percent), we found 507 were missing Social Security
numbers (SSN), 128 had invalid SSNs, 38 were not receiving Social Security benefits,
and 11 died before the WIPA enrollment date.

SSA had not established performance goals or specific targets to define the level of
performance to be achieved by WIPA grantees. The Agency required that each grantee
provide direct WIPA services to beneficiaries who lived in designated areas grantees
served. This objective was vague because it did not define the level of performance to
be achieved by the grantees. The lack of clearly defined performance goals contributed
to the significant variation in the cost to enroll beneficiaries in WIPA services. The cost
to enroll beneficiaries in WIPA services ranged from $138 to $5,230 among the
103 grantees. 17 The average cost per enrollee was $587 while the median was
$686 per enrollee. Without clear expectations of what grantees are to accomplish, it is
difficult for SSA to adequately measure grantees’ performance, or the success of WIPA.

Finally, we determined that although SSA provided a degree of oversight and
monitoring of WIPA grantees, improvements were still needed because SSA did not
conduct suitability determinations for 56 grant employees 18, as required by the grant
award. Initially, the Agency determined that suitability determinations were not required
for some of these employees because the employees were in positions that did not
appear to require access to personal identifiable information (PII). However, we found
that nine of these grant employees were granted access to SSA’s ETO system, which

17
  In addition to the lack of clearly defined performance goals, the disparity in the level of performance
among the 103 grantees can be attributed to other factors, such as staffing level of grantees, location of
the grantee in comparison to the population served, and leveraging of non-SSA funding by grantees.
18
  After we notified the SSA about the 56 grant employees that did not receive the required suitability
determinations, the Agency initiated and completed suitability determinations for eight grant employees.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                           6
contains beneficiaries’ PII, such as benefit and earnings information. In addition, two
grantees could not demonstrate they provided about $41,000 in matching funds or in-
kind services, and three grantees failed to submit a re-budgeting request to SSA after
their Federal share portion of grant funds exceeded the threshold by about
$112,000 during 2 grant years.

MONITORING AND TRACKING WIPA ENROLLEES

The Agency could not determine how many beneficiaries received WIPA services since
WIPA’s inception in 2006. This occurred primarily because from October 2006 through
September 2008, SSA allowed the 103 grantees to use their own data collection
systems to track beneficiary information and report outcome data to SSA. While SSA
provided the grantees with the required data to be collected, 19 the grantees expressed
confusion about the data they were to collect and report to SSA. Some were collecting
and reporting data based on the previous BPAO reporting requirements. 20 In addition,
the method the grantees used to submit required data to SSA varied. Some grantees
used their own management tracking systems (electronic and paper), while others used
bullet points to report achievements on the quarterly progress reports. The lack of
uniformity in the grantee’s data collection led to unreliable and inconsistent beneficiary
data, which made it impossible for SSA to determine the extent to which beneficiaries
received WIPA services during the 2 years.

Use of ETO System

The Agency recognized there was a problem with its method of collecting data from the
grantees. In September 2007, SSA awarded a contract to design and implement a new
secure Web-based system called ETO to provide program evaluation, monitoring, and
internal case management for WIPA grantees. 21

•     Program Evaluation: ETO allowed SSA to evaluate beneficiary data entered by the
      WIPA grantees to assess the grantees’ effectiveness in assisting beneficiaries in
      using work incentives and other programs to increase earnings. The type of data
      collected included beneficiary SSN and basic demographic information. The data
      collected would be matched against SSA’s records to determine the extent to which
      beneficiaries who have received WIPA services used work incentives or increased
      their earnings.




19
     71 Fed. Reg. 28401 (May 16, 2006).
20
  About 82 of the 103 grantees were former BPAOs and had access to the former BPAO reporting
system. This system became obsolete after the contract was terminated in September 2006.
21
  Mathematica Policy Research, Inc., Final Report, Evaluation of the Work Incentives Planning and
Assistance (WIPA) Program: Beneficiaries Served, Services Provided and Program Costs,
September 16, 2010.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                      7
•   Monitoring: ETO allowed SSA to understand and track the services delivered by
    individual WIPA grantees and the program overall. The data collected included
    beneficiary characteristics and benefits received, types of services provided, number
    of beneficiary services, and assessments conducted; beneficiary employment goals;
    work incentives discussed and used; changes in employment status; and outreach
    activities.

•   Internal Case Management: ETO had built-in reports and other features to allow the
    WIPA grantees to manage their cases and internal case monitoring.

ETO was implemented and made available to all grantees in October 2008. It was
expected that the grantees would enter into ETO the current beneficiary information as
well as backlog beneficiary information from 2008 and earlier. However, the contractor
determined the data entered were unreliable because of issues with data quality,
accuracy, and completeness. Specifically, they found the following issues.

•   Data for beneficiaries who were enrolled in 2008 and earlier could not be transferred
    to ETO successfully because of the variation in data quality, completeness, and lack
    of compatibility with ETO.

•   Most WIPA grantees did not start entering beneficiary data into the ETO until
    January 2009, creating a gap between the times backlog data were uploaded and
    the grantees entered current data. This caused the backlog data and current data to
    be mixed.

•   In some instances, the date the backlog files were uploaded into ETO were
    erroneously recorded as the date a beneficiary started receiving WIPA services.
    Thus, many of these cases were identified as current rather than backlog cases.

•   About 7 percent of the beneficiary records entered from May through August 2009
    did not include SSNs. Missing SSNs make it difficult or impossible to merge the
    data with SSA’s earnings and Ticket to Work records to determine whether the
    beneficiaries are working, or using their ticket.

•   WIPA grantees were not always completing assessments for all beneficiaries whom
    they indicated as enrolled in WIPA. From May to August 2009, about one-third of
    the enrolled beneficiaries did not have a complete baseline assessment.

In response, SSA implemented the following actions to help improve the quality of the
data entered into the ETO system by grantees.

•   Conducted weekly intensive calls with each WIPA grantee identified as problematic.

•   Created a team to improve existing materials and developed numerous guidance
    documents, manuals, and related materials to be used by grantees.



Work Incentive Planning and Assistance Project (A-03-10-11054)                        8
•     Provided increased on-site technical assistance visits to provide training on ETO for
      grantees experiencing difficulties using the system.

•     Increased the number of site reviews conducted by SSA focusing on ETO usage.

•     Developed a protocol and flowchart including guidance for grantees on which entity
      to contact for different issues and problems.

•     Held monthly teleconferences with grantees to review new guidance, approaches to
      data collection, and strategies for improving efficiency in data collection.

Based on actions taken by SSA and WIPA grantees to improve data quality, the
contractor determined the beneficiary information that was most reliable for evaluating
the short-term and intermediate outcomes for WIPA was entered in ETO from
October 2009 through March 2010. 22 During this 6-month period, ETO showed the
grantees provided first-time services to approximately 26,000 beneficiaries. This
included 13,668 beneficiaries who received information and referral assistance, which
involved answering general questions about benefits or work supports during a couple
meetings and 12,610 beneficiaries who received WIPA services, which involved taking
a baseline assessment of beneficiaries and collecting beneficiaries’ employment goals,
employment status, education level, and benefit information.

Reliability of ETO Data After October 2009

Based on our review of the data entered into ETO from October 2009 through
March 2010, we found there continued to be data quality, accuracy, and completeness
issues. We focused our review on the 12,574 beneficiaries 23 who received intensive
WIPA services because WIPA grantees were required to collect an extensive amount of
information for these beneficiaries to provide WIPA services. 24 For example, the
grantees were required to collect the first and last name, date of birth (DoB), gender,
SSN, and benefits received at intake. 25 By collecting this information, grantees could
verify beneficiaries’ benefits and earnings information with SSA so the grantees could




22
  Mathematica Policy Research, Inc., Final Report, titled Evaluation of the Work Incentives Planning and
Assistance (WIPA) Program: Beneficiaries Served, Services Provided and Program Costs, dated
September 16, 2010.
23
  Our numbers were slightly different from those reported in the evaluation report because we removed
36 duplicate records.
24
  We focused our review on WIPA services because it is a more intensive intake process and should
account for about 80 percent of the WIPA grantee workload. We did not focus on the information and
referral service because grantees were not always able to collect all of the required information such as
SSNs because individuals were reluctant to provide their SSNs over the telephone.
25
     See Appendix E for the list of data collected for WIPA services.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                          9
target their WIPA services appropriately. 26 While the ETO system showed
12,574 beneficiaries were enrolled in WIPA, we could only verify that
11,890 (95 percent) beneficiaries were eligible to receive WIPA services. For the
remaining 684 enrollees (5 percent), we found the following issues.

•    Grantees failed to enter into ETO the SSNs for 507 enrollees. In addition, among
     the 507 enrollees, the grantees failed to capture the DoBs for 276 enrollees.
     Without the SSN and DoB, it will be difficult or impossible for SSA to match enrollee
     information to its benefit and earnings records to determine whether these enrollees
     were receiving benefits, returning to work, or increasing their earnings.

•    Grantees collected names and SSNs for 128 enrollees that were invalid. The names
     and SSNs included in ETO did not match SSA’s Numident record, which is the
     repository of all issued SSNs. 27

•    Grantees enrolled 38 individuals who did not file for or receive disability benefits.
     According to the grant award, grantees were to provide WIPA services to individuals
     who were receiving DI and/or SSI. To ensure individuals were eligible to receive
     WIPA services, grantees were required to obtain Benefit Planning Query (BPQY)
     statements from SSA to confirm whether individuals were receiving benefits. 28

•    Grantees enrolled 11 individuals whose Numident records showed they died about
     1 month to 11 years before the enrollment date shown in ETO.

It is critical for grantees to enter accurate beneficiary information into ETO so SSA can
match the data to its records to determine the degree to which beneficiaries have used
work incentives or increased their earnings. In addition, without accurate beneficiary
information, SSA cannot determine whether it is reimbursing grantees for allowable
costs. Based on the discrepancies we found with the ETO data, we believe SSA needs
to regularly conduct validity and integrity checks on the ETO data to ensure data are
reliable. Further, the Agency should target its on-site visits to those grantees that
continue to enter inaccurate and incomplete information into the ETO system.



26
  In accordance with Federal Law, grantees were required to obtain a valid consent form from the
beneficiary, which allowed SSA to disclose the benefit and earnings information to the grantee. See
Privacy Act of 1974, 5 U.S.C. § 552a(b).
27
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File in SSN order.
28
  The BPQY statement is part of SSA’s initiative to improve the delivery of service and information
related to SSA work incentives and other employment support programs for beneficiaries with disabilities
who want to work. The BPQY statement provides information regarding a disabled individual’s benefits
and employment history and can be requested by a beneficiary, representative, advocate, or other third-
party organization such as WIPA grantees. See Programs Operation Manual System, TC 17001.052.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                        10
PERFORMANCE MEASURES FOR WIPA

It was unclear whether grantees were meeting the objectives of WIPA because SSA
had not established clearly defined performance goals that were measurable or
quantifiable. The Agency required that each grantee provide direct WIPA services to
beneficiaries who lived in designated areas grantees served. This objective was vague
because it did not define the level of performance to be achieved by the grantees. We
believe the lack of clearly defined performance goals contributed to the significant
variation in the cost to enroll beneficiaries in WIPA services among the 103 grantees.

During the 15-month period (October 2009 through December 2010), ETO showed the
103 grantees enrolled about 33,000 beneficiaries for WIPA services, ranging from 24 to
1,194 beneficiaries. The cost to enroll a beneficiary in WIPA services varied
significantly among the 103 grantees. The cost per enrollee was determined by dividing
the grant award amount for the 15-month period by the number of beneficiaries enrolled
in WIPA services. 29 For the 103 grantees, the cost per enrollee ranged from $138 to
$5,230 (see Table 2). The average cost per enrollee was $587 for the grantees while
the median was $686. We found that 23 (22 percent) of the grantees had the highest
cost per enrollee ranging from $1,000 to $5,230. This population included four grantees
who received $100,000 in funding and four grantees who received $300,000 in funding.
Therefore, the level of funding did not affect the grantees’ performance. For example,
the cost per enrollee for a grantee in Ohio was $2,071 because the grantee received
about $300,000 in funding and enrolled 140 beneficiaries. The cost per enrollee for a
grantee located in Hawaii was about the same at $1,973, but the grantee only received
$100,000 and enrolled 49 beneficiaries.

At the other end of the continuum, five grantees (5 percent) had the lowest cost per
enrollee ranging from $138 to $249. Again, this population included grantees who
received both the lowest and highest grant award amounts. For 75 grantees
(73 percent), the cost per enrollee ranged from $254 to $957 (see Table 2). This range
was reasonable when compared to grantees with the highest and lowest levels.
However, without clearly defined performance goals, it is unclear whether these
grantees were performing at a reasonable level.




29
   We used 80 percent of the grant award amount because SSA required that grantees spend 80 percent
of their resources on WIPA services.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                  11
                        Table 2: Cost Per Enrollee by Grantees
                                  Grant Award Amount
                                   $100,001    $200,000
       Cost Per                       to          to
       Enrollee       $100,000     $199,999    $299,999     $300,000     Total    Percent
      $138 - $249         1            3           0            1           5         5
      $250 - $499         6            9           9            0          24        23
      $500 - $749         6           11          11            3          31        30
      $750 - $999         2            5           8            5          20        19
     $1000 - $5230        4            6           9            4          23        22
        Total            19           34          37           13         103      100(1)
   Note:   Last column adds up to 99 percent because of rounding.
   Source: SSA’s WIPA Average Cost Per Enrollment Report, as of February 2011 revised.

The disparity in the level of performance among the 103 grantees can be attributed to
the lack of clearly defined performance goals as well as other factors, such as staffing
level of grantees, location of the grantees in comparison to the population served, and
leveraging of non-SSA funding by grantees. According to SSA staff, the level of
performance among the grantees varied because grantees were diverse; some covered
large rural regions while others had more beneficiaries within a close area. To address
the issue, the Agency uses management information reports generated from ETO to
monitor the progress of grantees and focus its oversight efforts on low performing
grantees. Despite SSA’s oversight efforts, without clear expectations of what grantees
are to accomplish, it is difficult for SSA to adequately measure grantees’ performance,
or WIPA’s success. During the audit, Agency staff stated they were developing
benchmarks to set performance targets for the grantees and expected to finalize the
benchmarks by June 30, 2011. We believe these benchmarks should include
performance goals that define the level of performance to be achieved by WIPA
grantees, ensuring that the performance goals are measurable and quantifiable.

OVERSIGHT AND MONITORING OF WIPA GRANTS

Oversight and monitoring of grant activities is a key management tool, which helps
ensure grantees comply with the terms and conditions of the grant award and
appropriated funds awarded to grantees are properly expended. SSA provided a
degree of oversight and monitoring of WIPA grantees by conducting on-site reviews of
grantees, conducting teleconferences and quarterly meetings with grantees, reviewing
required progress and financial reports, and conducting independent evaluations of the
WIPA. However, improvements are still needed because we found that SSA did not
conduct suitability determinations for all grant employees. In addition, two grantees
could not demonstrate they had provided matching funds or in-kind services and three
grantees failed to submit a re-budgeting request to SSA after their Federal share portion
of grant funds had exceeded the threshold.




Work Incentive Planning and Assistance Project (A-03-10-11054)                              12
Suitability Determination for Grant Employees

We found there were 56 WIPA grant employees 30 who did not receive a suitability
determination security clearance, as required by the grant award. 31 The award letter for
each year stated, “All employees working on federally funded WIPA projects must
undergo a Suitability Determination Security Clearance. The process includes
background checks and fingerprinting for all staff assigned to this project.” 32 We found
that 9 of the 56 employees were provided access to ETO even though they had not
received a suitability determination. SSA’s policy required that grant employees receive
a favorable suitability determination before being granted access ETO because the
system includes PII. The WIPA grantees were required to contact the contractor who
manages the ETO system and request a new account for their employees. When the
contractor received the request, they were required to verify with SSA whether the grant
employee had received a favorable security determination. Agency staff could not find
evidence that it conducted suitability determinations for the nine employees. Based on
our review, Agency staff terminated the ETO access for six of the nine employees.

Initially, Agency staff stated that the remaining 47 employees did not receive a suitability
determination because they were in positions that did not require interaction with
beneficiaries and/or access to PII. Some of these positions included Attorneys,
Bookkeepers, Program Directors, and Intake Specialists. However, it is feasible that
employees in these administrative positions may have had indirect access to
beneficiaries or to PII. After we brought this issue to their attention, OESP and OAG
agreed that all employees working the WIPA grant must undergo a suitability
determination as required by the grant award. Therefore, the Agency should ensure
that the 56 grant employees receive a suitable determination and establish procedures
to ensure that all grant employees receive a suitability determination.

Matching Funds Requirement

WIPA required matching funds from grantees to broaden the impact on the work
incentive program as the matching funds allow grantees to serve more beneficiaries.
The matching funds can be cash or in-kind as long as the matching funds are verifiable
from grantees’ records. Our review of grantees’ final FSRs and financial records for
2008 and 2009 showed that 2 of the 12 grantees did not substantiate that they provided
the required matching share of $41,000 (see Table 3). The grant award required that
the grantees provide a matching share that equals a minimum of 5 percent of the total
project costs. The matching share is calculated using the following formula: Federal
share divided by .95 equals total project costs. The matching share equals the total


30
  After we notified the SSA about the 56 grant employees that did not receive the required suitability
determinations, the Agency initiated and completed suitability determinations for 8 grant employees.
31
     SSA conducted suitability determinations for about 900 WIPA grant employees.
32
     See Appendix C for terms and conditions of grant award.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                           13
project cost minus the Federal share. Since the two grantees did not demonstrate that
the required matching funds were provided, we question $41,000 in grant funds.

                              Table 3— Unsupported Matching Share
                                                                            Actual
                              Total Federal          Required              Matching         Questioned
      State of Grantee           Share            Matching Share            Share             Costs
           Kentucky              $578,742             $30,459                 $0(1)           $30,459

              Utah               $200,000             $10,526                 $0(1)           $10,526
             Total                                                                            $40,985
     Note: (1) During our site visits, the grantees could not provide support for any of its matching share.

Budget Revisions

We found 3 of the 12 grantees failed to submit a budget revision 33 request to SSA after
their Federal share portion of grant funds had exceeded the threshold by approximately
$112,000 in 2008 and 2009 (see Table 4). The grant award required that grantees
contact SSA before a “significant rebudgeting” (in excess of $5,000), either within or
between expense categories, or "significant cumulative rebudgeting" of awarded grant
funds, since it could possibly affect the scope or objectives of the grant. The three
grantees failed to notify SSA that they needed to re-budget for rent and salary
expenses.

                       Table 4 — Budgeted Amount Exceeded Threshold

                  Category                    Kentucky         California         Ohio          Totals

      Budget Category                       Rent/Utilities      Salaries        Salaries
      2008 Budgeted Amount                     $11,200          $101,760              $0      $112,960
              Actual Amount                    $32,960          $151,184              $0      $184,144
                 Difference                    $21,760           $49,424              $0       $71,184
      2009 Budgeted Amount                     $12,156          $101,760        $265,084      $379,000
              Actual Amount                    $32,515          $112,860        $274,470      $419,845
                 Difference                    $20,359           $11,100         $9,386        $40,845
                     Total                     $42,119           $60,524         $9,386       $112,029




33
  Grantees are required to report deviations from the budget and request prior approvals for budget
revisions by contacting SSA before a significant budget revision.


Work Incentive Planning and Assistance Project (A-03-10-11054)                                             14
                                                   Conclusions and
                                                  Recommendations
From 2006 through 2010, SSA awarded about $93 million in grant funds to the
103 grantees to provide WIPA services to DI and/or SSI beneficiaries. However, the
Agency was still unable to show employment outcomes for beneficiaries who received
WIPA services because of the challenges with the quality and accuracy of the
beneficiary data collected and reported by WIPA grantees. In addition, SSA did not
clearly outline specific performance measurements that defined the level of
performance the WIPA grantees were to achieve. As a result, the cost to provide WIPA
services varied significantly among the 103 grantees ranging from $138 to $5,230.
Without clear expectations of what grantees are to accomplish, it is difficult for SSA to
adequately measure grantees’ performance, or WIPA’s success. Furthermore, we
found that SSA was providing a degree of oversight and monitoring of WIPA grantees to
ensure grantees complied with administrative, financial, and programmatic policy and
procedures. However, we believe the Agency still needs to make improvements related
to suitability determinations, matching funds, and budget revisions.

RECOMMENDATIONS
We recommend that SSA:
1. Conduct periodic validity and integrity checks on the ETO data to ensure the data
   are reliable by verifying beneficiary names, SSNs, and benefit status. Based on the
   results of the validity and integrity checks, follow up with grantees who continue to
   enter inaccurate and incomplete information into the ETO system.
2. Establish performance goals for WIPA that define the level of performance WIPA
   grantees are to achieve, ensuring the performance goals are quantifiable and
   measurable.
3. Establish procedures to ensure all grantee employees receive a suitability
   determination before working on the WIPA grant.
4. Require the two grantees provide adequate support for the matching share or take
   appropriate steps to recover the $40,985 in grant funds.
5. Send reminders to WIPA grantees about the importance of submitting revised
   budgets to SSA when the Federal share portion of funds exceed the
   $5,000 threshold either within or between expense categories.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix F.



Work Incentive Planning and Assistance Project (A-03-10-11054)                        15
                                            Appendices




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                                                 Appendix A

Acronyms
 CWIC              Community Work Incentives Coordinator
 BPQY              Benefits Planning Query
 BPAO              Benefits Planning, Assistance and Outreach
 DI                Disability Insurance
 DoB               Date of Birth
 ETO               Efforts To Outcomes
 Fed. Reg.         Federal Register
 FY                Fiscal Year
 FSR               Financial Status Report
 OAG               Office of Acquisition and Grants
 OESP              Office of Employment Support Programs
 PII               Personally Identifiable Information
 Pub. L. No.       Public Law Number
 SSA               Social Security Administration
 SSI               Supplemental Security Income
 SSN               Social Security Number
 U.S.C.            United States Code
 WIPA              Work Incentive Planning and Assistance
 Forms
 Form–269A         Financial Status Report
 Form-3288         SSA Consent for Release of Information




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                                                       Appendix B

Scope and Methodology
•   Reviewed the Social Security Administration’s (SSA) policies and procedures on
    grant management, including SSA’s Grant Policy Handbook and Grant
    Administration Manual.

•   Reviewed applicable Federal laws and regulations regarding grant awards as well as
    Office of Management and Budget Circulars A-21 (Cost Principles for Educational
    Institutions), A-122 (Cost Principles for Non-Profit Organizations), and A-133 (Audits
    of States, Local Governments, and Non-Profit Organizations).

•   Reviewed two evaluation reports, Process Evaluation of the Work Incentives
    Planning and Assistance Program, dated February 2009 and Final Report,
    Evaluation of the Work Incentives Planning and Assistance (WIPA) Program:
    Beneficiaries Served, Services Provided and Program Costs, dated
    September 16, 2010.

•   Reviewed the terms and conditions of the grant set forth in the solicitation and
    award.

•   Reviewed the 103 grantees to determine whether a Single Audit was performed for
    Fiscal Years (FY) 2007 to 2009.

•   Obtained and reviewed the grant files for all 103 WIPA grantees, which included
    grant award document, approved budgets, Financial Status Reports (Form-269A),
    quarterly progress reports, and other correspondence.

•   Obtained and reviewed the 103 WIPA grantees’ reimbursement histories from the
    Social Security Online Accounting and Reporting System.

•   Selected 12 grantees for review based on the following criteria:

        each SSA region was represented in the selection;
        grantees with the highest dollar grant award;
        grantees who were operating with a dual role of WIPA and Privacy and
         Advocacy providers; and
        grantees that had single audit findings for FYs 2007 through 2009.




Work Incentive Planning and Assistance Project (A-03-10-11054)                         B-1
•   Conducted 12 site visits and tested samples of grantees’ direct costs, payroll,
    indirect costs, and matching costs.

•   Reviewed the suitability status of WIPA employees to determine whether a suitability
    determination was conducted.

•   Obtained and reviewed the data extract from the Efforts to Outcomes system of
    enrollee information for the period October 1, 2009 to March 31, 2010.

•   Review Management Information Reports generated from the Efforts to Outcomes
    System for the period October 2009 through March 2011.

•   Reviewed the Employee Verification System, the Master Beneficiary Record, and
    the Supplemental Security Record for the 12,574 individuals enrolled in WIPA
    services.

We performed our audit in the Philadelphia Audit Division and at the locations of the
12 sample grantees from July 2010 through March 2011. We determined that data
used for this audit were sufficiently reliable to meet our audit objectives. We assessed
the reliability of the data by reconciling sample invoices to the selected transactions. In
addition, we verified beneficiary data for enrollees to SSA’s records. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives




Work Incentive Planning and Assistance Project (A-03-10-11054)                        B-2
                                                                         Appendix C

Work Incentive Planning and Assistance
Projects Grantee Terms and Conditions
Based on our review of the grant awards for 2006 through 2009, the Work Incentive
Planning and Assistance (WIPA) grantees were subject to the following terms and
conditions.

•   Serve the designated counties.
•   Send all Community Work Incentives Coordinators (CWIC) (who have not previously
    completed the Benefits Planning, Assistance and Outreach initial training class) to
    the official Social Security Administration (SSA)-sponsored initial training and all
    CWICs to refresher training as needed.
•   Ensure that CWICs employed under the WIPA Project meet and maintain the
    standards of competency developed by SSA. All CWICs must meet specific SSA-
    defined criteria and pass an SSA-approved examination to continue to provide
    services to Social Security beneficiaries with disabilities. SSA will establish a
    nationwide CWIC Registry for trained and qualified CWICs.
•   Provide training and technical assistance to CWICs about applicable State and local
    programs and the effect these programs have on other programs’ eligibility and
    benefits.
•   Provide direct WIPA services to Disability Insurance and/or Supplemental Security
    Income beneficiaries to assist them in their employment efforts.
•   Conduct outreach efforts in collaboration with SSA’s Program Manager for
    Recruitment and Outreach contractor to beneficiaries with disabilities (and their
    families) who are potentially eligible to participate in Federal or State work incentives
    programs.
•   Collect and report beneficiary information to include the Social Security number,
    required by SSA for evaluation and statistical purposes only.
•   All WIPA award recipients are required to protect personally identifiable information.
•   All employees working on federally funded WIPA projects must undergo a suitability
    determination security clearance. The process includes background checks and
    fingerprinting for all staff assigned to this project.
•   Submit to SSA quarterly progress reports and semi-annual Financial Status Reports
    (Form-269A).




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                                                     Appendix D

Summary of Sampled Grantees
                                                                        Total
                                      Amount           Total over    Unsupported
                                      Awarded        Expended WIPA   Matching in
    Grantee           State         2006 to 2010         Funds          Kind


        1           Kentucky         $1,364,262           $42,119      $30,459


        2          Mississippi       $1,443,126             None        None


        3        Massachusetts        $742,920              None         $0


        4             Ohio           $1,335,246            $9,386       None


        5             Ohio           $1,447,469             None        None


        6           Louisiana         $926,316              None        None


        7             Utah            $465,515              None       $10,526


        8           Missouri          $655,261              None        None


        9           New York         $1,376,675             None        None


       10         Pennsylvania       $1,319,629             None        None


       11           California        $665,174            $60,524       None


       12         Washington         $1,243,235             None        None
      Total                          $12,984,828          $112,029     $40,985




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                                                 Appendix E

Example of Intake for Work Incentive Planning
and Assistance Grantee




Work Incentive Planning and Assistance Project (A-03-10-11054)
Work Incentive Planning and Assistance Project (A-03-10-11054)   E-1
Work Incentive Planning and Assistance Project (A-03-10-11054)   E-2
Work Incentive Planning and Assistance Project (A-03-10-11054)   E-3
                                                                 Appendix F

Agency Comments




Work Incentive Planning and Assistance Project (A-03-10-11054)
                                      SOCIAL SECURITY

MEMORANDUM


Date:   July 27, 2011                                                           Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Work Incentive Planning and Assistance Project”
         (A-03-10-11054)--INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Frances Cord at (410) 966-5787.

        Attachment




        Work Incentive Planning and Assistance Project (A-03-10-11054)                             F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “WORK INCENTIVE PLANNING AND ASSISTANCE PROJECT” (WIPA)
(A-03-10-11054)


We offer the following responses to your recommendations.

Recommendation 1

Conduct periodic validity and integrity checks on the Efforts to Outreach (ETO) data to ensure
the data are reliable by verifying beneficiary names, SSNs, and benefit status. Based on the
results of the validity and integrity checks, follow-up with grantees who continue to enter
inaccurate and incomplete information into the ETO system.

Response

We agree. We now analyze data in our records and ETO system to ensure data is accurate and
complete.

Recommendation 2

Establish performance goals for WIPA that define the level of performance the WIPA grantees
are to achieve, ensuring the performance goals are quantifiable and measurable.

Response

We agree. We developed nine benchmarks, one annual performance indicator, companion
guidance, and training materials for WIPA performance. We are in the process of developing a
companion Services Report to allow us to monitor project performance and progress towards
meeting the nine benchmarks.

We introduced the performance benchmarks to the 102 WIPA grantees, and provided training on
methods to meet or exceed the standards. In addition, we included the nine benchmarks and the
annual performance indicator in the ‘Terms and Conditions’ language of the grant effective
July 1, 2011.

Recommendation 3

Establish procedures to ensure all grantee employees receive a suitability determination before
working on the WIPA grant.

Response

We agree. We now require everyone working on a WIPA grant to undergo an investigation
regardless of whether they have access to records, data, systems and/or premises.




Work Incentive Planning and Assistance Project (A-03-10-11054)                             F-2
Recommendation 4

Require that the two grantees provide adequate support for the matching share or take
appropriate steps to recover the $41,000 in grant funds.

Response

We agree. We are working with the two grantees to obtain supporting documentation for the
amounts they reported on their financial reports. If the grantees are unable to provide
documentation, they will revise their reports to include only funds they can substantiate. The
grantees will have the remainder of the project period (through June 2012) to comply with their
cost share obligation. We will monitor their final report closely, and require supporting
documentation for their final matching. If the grantees are not able to meet their full match and
provide supporting documentation, we will take actions to recover funds.

Recommendation 5

Send reminders to WIPA grantees about the importance of submitting revised budgets to SSA
when the Federal share portion of funds exceed the $5,000 threshold either within or between
expense categories.

Response

We agree. We will continue to provide written reminders to grantees to obtain prior written
approval when exceeding the threshold. We will also verbally remind them at the monthly
WIPA meetings. In addition, during our current processing period, we prepared award
documentation with language informing the grantees that we recently raised the threshold for
budget revision requests for grants to 25 percent, not to exceed $25,000 of the total direct costs.




Work Incentive Planning and Assistance Project (A-03-10-11054)                                F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division
   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Damon Mahoner, Auditor-in-Charge
   Michael Brooks, Auditor
   David Domzalski, Auditor
   Richard Devers, Information Technology Specialist
   Charles Zaepfel, Information Technology Specialist
   Brennan Kraje, Statistician
   Atlanta Audit Division
   Boston Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Kansas City Audit Division
   New York Audit Division
   San Francisco Audit Division

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-10-11054.




Work Incentive Planning and Assistance Project (A-03-10-11054)
                              DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




Work Incentive Planning and Assistance Project (A-03-10-11054)
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                             Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
